           U.S. Department of the Interior
               Office of Inspector General


            FLASH REPORT




Bureau of Indian Affairs and
Bureau of Indian Education:
Schools in Need of Immediate Action
C-IN-BIA-0008-2007             MAY 2007
                       United States Department of the Interior
                                   OFFICE OF INSPECTOR GENERAL
                                        Washington, D.C. 20240

                                                                                    May 31, 2007
Memorandum

To:            Assistant Secretary-Indian Affairs

From:          Earl E. Devaney
               Inspector General

Subject:       Health and Safety Deficiencies at Bureau of Indian Education Elementary and
               Secondary Schools (Report No. C-IN-BIA-0008-2007)

This report describes conditions at Bureau of Indian Education (BIE) schools that require
immediate action to protect the health and safety of students and faculty.

We visited 13 schools as part of our Department-wide audit to determine if the Department of
the Interior and its bureaus have effectively identified, prioritized, and mitigated health and
safety deficiencies related to maintenance of their constructed infrastructure that could affect
students, employees and the public. Although we have not yet completed this audit, we wanted
to bring to your attention the serious health and safety deficiencies we identified at BIE schools.

We found severe deterioration at elementary and
secondary schools, including boarding schools, that
directly affects the health and safety of Indian
                                                                                        Kayenta
children and their ability to receive an education.                              Shonto
Deterioration ranged from minor deficiencies, such                                          Chinle
as leaking roofs, to severe deficiencies, such as
                                                                                  Keams Canyon
classroom walls buckling and separating from their
foundation. Other severe deficiencies included
outdated electrical systems, inadequate fire
detection and suppression systems, improperly                      Phoenix
maintained furnaces, and condemned school
buildings that have not been torn down to remove
the health and safety hazards. Some of these
buildings have been condemned for over 10 years
and are still not surrounded by protective fencing to
prevent access to students. These severe
deficiencies have the potential to seriously injure or
kill students and faculty and require immediate
attention to mitigate the problems. This report highlights conditions at four schools in Arizona,
including Chinle Boarding School, Kayenta Boarding School, Shonto Preparatory School and
Keams Canyon Elementary School. The appendix describes conditions found at the other nine
schools we visited.
                                                 1
Background
The Office of Indian Education Programs            The Bureau of Indian Affairs publishes a
was established in the late 19th century to        Replacement School Construction Priority
carry out the federal government’s                 List to determine the order in which
education commitment to Indian tribes. In          Congressional appropriations are requested
2006, the Bureau of Indian Affairs                 to replace aging BIE-funded schools and
restructured its Office of Indian Education        dormitories. One of the components of the
Programs to create the BIE.                        prioritization process involves identifying
                                                   which schools have critical health and
BIE has responsibility for 184 elementary          safety deficiencies. Of the four schools
and secondary schools and dormitories, as          highlighted in this report, the Kayenta
well as 27 colleges, located on                    Boarding School was on the 2000 priority
63 reservations in 23 states. These                list, with a construction start date planned
schools serve approximately                        for 2001, but construction has not yet
60,000 students representing 238 tribes.           started. The Keams Canyon School was
The schools are primarily in Arizona and           ranked 7th out of 14 schools on the 2004
New Mexico, with most of the schools               list and remains on the list because funding
located on the Navajo Reservation. Of the          has not been approved. One school
184 schools, 59 are fully managed by               identified in our appendix to this report,
BIE. The remaining 125 schools are                 Little Singer Community School in
operated by Tribes and their                       Arizona, is ranked 13th out of 14 on the
representatives.                                   2004 list.


Chinle Boarding School
Chinle Boarding School, located in Many
Farms, Arizona, is a BIE-operated school,
with approximately 385 kindergarten
through 8th grade students and 90 staff
members. About 50 children are boarded
at the school. Except for a dormitory, built
in 2004, school facilities were constructed
in the early 1960s.

We found serious health and safety
deficiencies, especially in the academic
buildings, including severe structural
cracks in walls and walls that are shifting
because of unstable foundations. The wall
movement is exerting pressure on natural
gas lines, electrical wires, and boiler room
components. If the pipe lines or wiring is         Crumbling foundations in the academic buildings
damaged, escaping natural gas or electrical        are causing entire walls to move. The academic
                                                   buildings include the administration offices, boiler
discharges could result in an explosion and        room and four wings of classrooms. We placed
potential loss of life.                            the box to illustrate how much the wall in the
                                                   administration building has moved.
                                               2
The school’s cafeteria has                                               students in the dorms receive
been condemned since July                                                cold meals.
2006 because of severe
cracks in the building and                                             Other health and safety
shifting walls. A contractor                                           deficiencies at the school
evaluating the cafeteria                                               include leaking roofs, a non-
stated, “Should this wall                                              operable fire alarm system
collapse it could have a                                               and the use of a condemned
domino effect and the entire                                           building. In recent years,
roof structure could                                                   leaks in the school’s library
collapse. Should this occur,                                           roof have resulted in two
when occupied, there could                                             electrical fires. Toxic air
be massive injuries,                                                   from the most recent fire
including death of children.”                                          forced closure of the library
The academic buildings                                                 for a month. The school’s
currently in use have similar There are many severe cracks inside      fire alarm system also does
structural deficiencies and   the academic buildings, which could      not work. School officials
risks to students and staff.  cause wiring to short-circuit.           stated that in the event of a
                                                                       fire, their priority is “to
Since the cafeteria is condemned, school                remove the children and let the facility
children are now transported by bus to an               burn.” A building condemned about 35
alternative meal site, resulting in four                years ago continues to be used on a regular
injuries to students and staff. Because                 basis as a locker room and practice facility
transporting students after school takes so             for student athletes. The student athletes
much time on poorly maintained                          were moved into the condemned building
reservation roads, buses return late and                because school officials felt this building




Flexible gas line components replaced the old gas       Crumbling and unstable foundations are causing
lines to accommodate the shifting walls. Shifting       school walls to shift and creating the potential for
walls could rupture gas lines, causing an               a life-threatening accident in the academic
explosion in the academic buildings.                    buildings.
                                                    3
was in better condition than a non-                    an electrical fire. We also saw electrical
condemned one that was being used.                     extension cords in the class rooms and
Despite these critical health and safety               hallways; they are routed through brick
issues, Chinle Boarding School is not                  walls and dangle from ceilings. In addition
scheduled to be replaced.                              to these unsafe practices, the school’s fire
                                                       alarm system does not work properly. The
Shonto Preparatory School                              school has an ongoing rodent problem and
                                                       hantavirus, a deadly disease that can be
Shonto Preparatory School, located in                  contracted from rodent feces, is a
Shonto, Arizona, is a Tribally-operated                concern. A hantavirus scare last summer,
school. The                                            when three dead mice were found in air
school, which was                                      ducts, resulted in the school closing for
built in the 1960s,                                    1 week. In addition to the electrical and
has about 550                                          rodent problems, we observed paint
kindergarten                                           chipping on the school’s exterior that we
through 8th grade                                      were told was lead paint, a filthy sink that
students, 100 of                                       we were told was used for food
which are                                              preparation, food splattered on the kitchen
boarded.            Exposed light fixture in           ceiling, and an exposed light fixture in a
                       locker room shower can          shower stall in the girls’ locker room. We
The school has         electrocute the students.
                                                       believe that many of these health and
180 employees,                                         safety problems could have been avoided
and approximately 140 employee quarters.               with routine preventative maintenance and
The school is not scheduled to be replaced.            good housekeeping practices.
We found serious electrical deficiencies
that increase the risk of fire and endanger            During our review, we learned of an
the lives of students. The school does not             employee and her husband who became ill
have sufficient electrical capacity to                 and were taken to a hospital where they
support a computer lab, so duct tape was               were diagnosed with carbon monoxide
placed over the circuit breaker to prevent it          poisoning. The source was an aging wall
from tripping. This unsafe practice could              furnace within their quarters that had not
ultimately overload the circuits and cause             been properly maintained. The quarters are
                                                       bureau owned, and the incident could result
                                                       in a tort claim. We were told by school
                                                       officials that the furnaces in over 100 of the
                                                       employee quarters pose this same risk.

                                                       Keams Canyon School
                                                       Keams Canyon School, initially built in
                                                       1928, is a BIE-operated school in Keams
                                                       Canyon, Arizona. The school, now only a
                                                       day school, has 60 kindergarten through
                                                       6th grade students. The most serious
                                                       problem at the school is condemned
Filthy sink used for food preparation is an            buildings, which have not been sufficiently
incubator for germs and bacteria.

                                                   4
boarded up and can be accessed by
children.

The buildings have deficiencies that
include collapsed floors, flooding, mold,
broken glass, and stored toxic chemicals.
The buildings include dormitories, which
have been condemned for about 10 years,
and a condemned industrial arts building.




                                                          A failed inspection tag, dated 2002, hangs from the
                                                          continuously leaking boiler.

                                                          The buildings need to be demolished or
                                                          children could be seriously injured.
                                                          Additionally, the boiler, which is still in
                                                          operation, leaks large amounts of water and
                                                          has not been inspected since 2002, at which
This condemned building is unfenced and within            time it failed inspection.
100 yards of children's classrooms and play areas.
                                                          Kayenta Boarding School
                                                          Kayenta
                                                          Boarding
                                                          School, a
                                                          BIE-operated
                                                          school, is
                                                          located in
                                                          Kayenta,
                                                          Arizona, and
Water damaged ceiling in a condemned dormitory
that is being accessed, possibly by children.             has about 450
                                                          kindergarten
                                                          through
                                                          8th grade
                                                          students. The
                                                          process to build
                                                          a new school
                                                          began in 1999
                                                          and planning
                                                          had reportedly
                                                          started; yet       Mold in employee work area.
Current cafeteria is on the right and is surrounded       construction       Note: We understand that this
by condemned dormitories. Water from a broken             has not been       wall has since been removed,
pipe had turned to ice, endangering children who                             but a mold remediation expert
play in the courtyard.
                                                          scheduled.         was not used.

                                                      5
                                                       3. Develop and implement inspection and
                                                          abatement plans to identify and
                                                          mitigate all health and safety hazards
                                                          at BIE schools.

                                                       This flash report is being issued to notify
                                                       both Departmental and bureau management
                                                       of serious health and safety issues that we
                                                       found so that immediate action can be
                                                       taken. Our Department-wide audit report
                                                       will address some of the more
Unprotected buckled sidewalks are an “attractive       comprehensive factors that contributed to
nuisance.” They pose a serious safety risk to
                                                       these health and safety deficiencies.
students who may be attracted to play on them.

We identified severe health and safety                 The Department-wide audit is being done
deficiencies at the school. The most                   in accordance with Government Auditing
serious deficiencies include a buckled                 Standards issued by the Comptroller
sidewalk, water leaks near electrical outlets          General of the United States.
and light fixtures in the cafeteria, and mold
on an office wall. We also learned that the            Please provide us with your written
gym fire sprinklers were inoperable.                   comments to this report and a summary of
                                                       actions taken or planned by July 2,
                                                       2007. Please address your response to:
Conclusion
BIE needs to take immediate action to                     Ms. Anne L. Richards
address health and safety deficiencies                    Assistant Inspector General for Audits
identified in this report. Additionally, we               U.S. Department of the Interior
are concerned health and safety could be a                Office of Inspector General
wider spread problem at other schools. In                 1849 C Street, NW, MS 5341
fact, BIE has identified that 69 of its                   Washington, D.C. 20240
schools (38%) are in poor condition.
Failure to mitigate these conditions will              If you have comments or questions about
likely cause injury or death to children and           this report, please contact me at
school employees.                                      (202) 208-5745.

Recommendations
We recommend that the Assistant
Secretary, Indian Affairs require the
Directors of BIA and BIE:

1. Stabilize or vacate buildings currently
   in use that are in imminent danger of
   collapse.

2. Demolish or take immediate steps to
   prevent access to condemned buildings
   until they are demolished.
                                                   6
                                    Appendix

       Schedule of 9 BIE Facilities & Related Deficiencies

                Facility                           Deficiencies Observed
Jeehdeez’a Academy (Low Mountain)    Deteriorating and inoperable bathroom facilities;
Pinon, Arizona                       numerous fire suppression deficiencies; inadequate
                                     water and electrical systems
Kinlani Bordertown Dormitory         Existing dormitory is unsafe; wood paneling is not fire-
Flagstaff, Arizona                   rated; interior walls block fire sprinklers; padlocks on
                                     gym doors could trap students in the event of fire;
                                     exposed asbestos and water damage in kitchen

                                     Construction of new dormitory delayed; planned
                                     infrastructure such as pavement around the dormitory
                                     eliminated due to budget constraints; muddy conditions
                                     around the new dormitory

Little Singer Community School       Deteriorating kitchen floors; overloaded electrical
Winslow, Arizona                     systems resulting from technology demands; broken
                                     glass in windows and doors; intermittent phone service

Tuba City Boarding School            Over 20 condemned bureau-owned buildings in the
Tuba City, Arizona                   vicinity of the school; several have collapsing roofs and
                                     floors as a result of past fires

Sherman Indian High School           Overloaded electrical systems resulting from technology
Riverside, California                demands; old carpeting creating trip hazards; inadequate
                                     exterior lighting; phones sometime short-circuit the fire
                                     alarm system

Beclabito Day School                 Uneven floors; construction of new school delayed
Shiprock, New Mexico

Sanostee Day School                  Condemned building with severe cracks adjacent to
Sanostee, New Mexico                 school and not surrounded by protective fencing; fire
                                     alarm system not integrated between buildings

Oglala Community School,             Lead-based paint in student dorm; no handrails on
Pine Ridge, South Dakota             exterior stairs; exterior siding falling off newer units;
                                     roof in need of completion

Okreek School                        Missing interior stairway handrail; exterior stairway
Okreek, South Dakota                 wall cracked; unlevel concrete stairs; noncompliant fire
                                     alarm system; no protective sprinkler system




                                         7
